Brian E. Harriss
6023 Harriss Hammond Rd
Harlem, GA 30814
January 24, 2020
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Brian E. Harriss v. Commissioner of Internal Revenue
Certificate of Service of Petition for a Writ of Certiorari

Dear Mr. Harris:
I, Brian E. Harriss, Petitioner pro se, declare that on January 24, 2020, I caused the
Respondent Commissioner of Internal Revenue to be served, pursuant to Rule
29.4(a), by depositing into the U.S. Mail, postage pre-paid, three copies of the
Petition for Writ of Certiorari of Brian E. Harriss to counsel for the Commissioner:
Noel J. Francisco
Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Ave., N. W., Room 5614
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
In accordance with Supreme Court Rule 29.5, this is to certify that all parties
required to be served in this matter have been served.

Brian E. Harriss, Petitioner

RECEIVED
JAN 2 8 2020
OF
LERK
SUPREMECOURT, U.S.

